<html>
<title> - MARKUP OF H.R. 277, ``ACCESS TO SUFFICIENT CAPITAL FOR EVERYONE IN NATURAL DISASTER AREAS ACT OF 2019''; H.R. 2142, ``TO AMEND THE SMALL BUSINESS ACT TO REQUIRE THE SMALL BUSINESS AND AGRICULTURE REGULATORY ENFORCEMENT OMBUDSMAN TO CREATE A CENTRALIZED WEBSITE FOR COMPLIANCE GUIDES, AND FOR OTHER PURPOSES''; H.R. 1649, ``SMALL BUSINESS DEVELOPMENT CENTER CYBER TRAINING ACT OF 2019''; H.R. 1648, ``SMALL BUSINESS ADVANCED CYBERSECURITY ENHANCEMENTS ACT OF 2019''; H.R. 2331, ``SBA CYBER AWARENESS ACT OF 2019''; H.R. 2345, ``CLARIFYING THE SMALL BUSINESS RUNWAY EXTENSION ACT OF 2019''</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


 MARK-UP OF LEGISLATION TO AMEND THE SMALL BUSINESS ACT AND THE SMALL 
                        BUSINESS INVESTMENT ACT

=======================================================================

                                HEARING

                               BEFORE THE

                      COMMITTEE ON SMALL BUSINESS
                             UNITED STATES
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD
                              MAY 1, 2019

                               __________

 [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]                              
                               

            Small Business Committee Document Number 116-017
             Available via the GPO Website: www.govinfo.gov
                   
                   
                              __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
36-210                     WASHINGTON : 2019                     
          
--------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="37475877544244435f525b471954585a19">[email&#160;protected]</a>                            
                   
                   
                   
                   HOUSE COMMITTEE ON SMALL BUSINESS

                 NYDIA VELAZQUEZ, New York, Chairwoman
                         ABBY FINKENAUER, Iowa
                          JARED GOLDEN, Maine
                          ANDY KIM, New Jersey
                          JASON CROW, Colorado
                         SHARICE DAVIDS, Kansas
                          JUDY CHU, California
                           MARC VEASEY, Texas
                       DWIGHT EVANS, Pennsylvania
                        BRAD SCHNEIDER, Illinois
                      ADRIANO ESPAILLAT, New York
                       ANTONIO DELGADO, New York
                     CHRISSY HOULAHAN, Pennsylvania
                         ANGIE CRAIG, Minnesota
                   STEVE CHABOT, Ohio, Ranking Member
   AUMUA AMATA COLEMAN RADEWAGEN, American Samoa, Vice Ranking Member
                        TRENT KELLY, Mississippi
                          TROY BALDERSON, Ohio
                          KEVIN HERN, Oklahoma
                        JIM HAGEDORN, Minnesota
                        PETE STAUBER, Minnesota
                        TIM BURCHETT, Tennessee
                          ROSS SPANO, Florida
                        JOHN JOYCE, Pennsylvania

                Adam Minehardt, Majority Staff Director
     Melissa Jung, Majority Deputy Staff Director and Chief Counsel
                   Kevin Fitzpatrick, Staff Director
                            
                            
                            
                            C O N T E N T S

                           OPENING STATEMENTS

                                                                   Page
Hon. Nydia Velazquez.............................................     1
Hon. Steve Chabot................................................     3

                                APPENDIX

Additional Material for the Record:
    H.R. 277, ``Access to Sufficient Capital for Everyone in 
      Natural Disaster Areas Act of 2019''.......................    21
    H.R. 2142, ``To Amend the Small Business Act to Require the 
      Small Business and Agriculture Regulatory Enforcement 
      Ombudsman to Create a Centralized Website for Compliance 
      Guides, and for other purposes''...........................    23
    H.R. 1649, ``Small Business Development Center Cyber Training 
      Act of 2019''..............................................    25
    H.R. 1648, ``Small Business Advanced Cybersecurity 
      Enhancements Act of 2019''.................................    28
    H.R. 2331, ``SBA Cyber Awareness Act of 2019''...............    40
    H.R. 2345, ``Clarifying the Small Business Runway Extension 
      Act of 2019''..............................................    45
    Amendment to H.R. 2345.......................................    49
    .............................................................

 
  MARKUP OF H.R. 277, ``ACCESS TO SUFFICIENT CAPITAL FOR EVERYONE IN 
 NATURAL DISASTER AREAS ACT OF 2019''; H.R. 2142, ``TO AMEND THE SMALL 
 BUSINESS ACT TO REQUIRE THE SMALL BUSINESS AND AGRICULTURE REGULATORY 
 ENFORCEMENT OMBUDSMAN TO CREATE A CENTRALIZED WEBSITE FOR COMPLIANCE 
     GUIDES, AND FOR OTHER PURPOSES''; H.R. 1649, ``SMALL BUSINESS 
  DEVELOPMENT CENTER CYBER TRAINING ACT OF 2019''; H.R. 1648, ``SMALL 
BUSINESS ADVANCED CYBERSECURITY ENHANCEMENTS ACT OF 2019''; H.R. 2331, 
``SBA CYBER AWARENESS ACT OF 2019''; H.R. 2345, ``CLARIFYING THE SMALL 
                BUSINESS RUNWAY EXTENSION ACT OF 2019''

                              ----------                              


                         WEDNESDAY, MAY 1, 2019

                  House of Representatives,
               Committee on Small Business,
                                                    Washington, DC.
    The committee met, pursuant to call, at 11:33 a.m., in Room 
2360, Rayburn House Office Building. Hon. Nydia M. Velazquez 
[chairwoman of the Committee] presiding.
    Present: Representatives Velazquez, Finkenauer, Golden, 
Kim, Crow, Davids, Evans, Schneider, Espaillat, Delgado, 
Houlahan, Craig, Chabot, Radewagen, Kelly, Balderson, Hern, 
Hagedorn, Stauber, Burchett, Spano and Joyce.
    Chairwoman VELAZQUEZ. Good morning. The Committee will 
please come to order. A quorum being present, and I am pleased 
to call this morning's meeting of the Committee on Small 
Business to order.
    In our first legislative markup of the 116th Congress we 
will be addressing reforms to assist America's 30 million small 
businesses continue to be engines of economic growth. These 
small firms employ nearly 50 percent of all private sector 
employees in the U.S., making it imperative to the American 
economy that they succeed. That is why recent surveys showing 
small business optimism slipping is incredibly concerning. The 
most recent one released on Monday found that economic outlooks 
have fallen by 7 percentage points since last fall. Such news 
merits our attention because small businesses are central to 
our mission.
    Being the only Committee dedicated solely to the needs of 
small firms, we remain committed on working to promote policies 
that will encourage economic prosperity on Main Street.
    I believe today's markup does just that by addressing 
timely issues facing small businesses across the country--from 
strengthening our communities after natural disasters to 
guarding small businesses against cyber threats and ensuring 
that growing firms can continue to do business with the Federal 
Government.
    Access to capital is essential for small business success 
and this is particularly true after a natural disaster. No 
matter the scope or the cost of a disaster, the first few weeks 
are critical to a small firm's recovery.
    The first bill today recognizes how critical it is to get 
money into a victim's hands to ensure they have every 
opportunity to rebuild their lives. By permanently increasing 
the threshold for collateral and disaster loans exceeding 
$25,000, more victims can readily access funds without fear and 
SBA can disburse disaster loans quickly to maximize small 
business survival post-disaster.
    The second bill we will discuss today also touches on an 
important issue for all small employers--transparency of 
compliance assistance resources. Small businesses do not always 
have the resources to navigate multiple agencies' websites to 
understand their responsibilities under new laws. Instead, they 
are worried about meeting payroll, hiring talented workers, and 
running the day-to-day operations of their small firms. This 
bill provides a centralized location to make it easier for 
business owners to find agency regulatory compliance guides and 
contract information.
    Another area where we can serve our Nation's small firms is 
in cybersecurity. America's entrepreneurs have always been 
vital to technological growth and advancement, but they have 
also been vulnerable to cyberattacks and data breaches. Three 
pieces of legislation we are marking up today address this very 
issue and will make valuable strides to establish a variety of 
tools to help businesses keep themselves safe from hackers and 
guarantee their data is secure when they interact with the SBA 
and their resource partners.
    A final issue of concern is the implementation of the Small 
Business Runway Extension Act, which passed into law in 
December. The purpose of that law was to make it easier for 
small Federal contractors to transition to an open marketplace. 
Unfortunately, the law's implementation has been delayed, 
leaving much uncertainty for small firms.
    A bill before us today clearly and unequivocally states 
Congress's intention regarding the Runway Extension Act. It 
also provides a temporary transition period to ease current 
ambiguity during implementation of the law. Each of these 
pieces of legislation are critical to making it easier for 
employers to do what they do best--operate their businesses, 
create jobs, and invest in local communities.
    As a result of numerous meetings with our constituents and 
several hearings on these issues, the Committee today is 
considering six pieces of legislation.
    H.R. 277, the ``Access to Sufficient Capital for Everyone 
in Natural Disasters Area Act of 2019,'' introduced by myself 
and cosponsored by Ranking Member Chabot.
    H.R. 2142, a bill to ease regulatory compliance for small 
businesses, introduced by Mr. Delgado and cosponsored by Dr. 
Joyce.
    H.R. 1649, the ``Small Business Development Center Cyber 
Training Act of 2019,'' introduced by Ranking Member Chabot and 
cosponsored by Mr. Evans.
    H.R. 1648, the ``Small Business Advanced Cybersecurity 
Enhancement Act of 2019,'' introduced by Ranking Member Chabot 
and Cosponsored by myself.
    H.R. 2331, the ``SBA Cyber Awareness Act of 2019,'' 
introduced by Mr. Crow and cosponsored by Mr. Balderson.
    And H.R. 2345, the ``Clarifying the Small Business Runway 
Extension Act 2019,'' introduced by Mr. Stauber and cosponsored 
by Mr. Golden.
    As we have done many times in the past, the bills before us 
today are brought before us in a bipartisan fashion. Both the 
Ranking Member and I support each of the six bills to be marked 
up today.
    However, before we get into the substance of the bills, I 
want to thank the Ranking Member and his staff for working in a 
bipartisan way on this package. I would also like to thank all 
of our Members, both Republican and Democrat, for their hard 
working and continued bipartisan commitment to putting small 
businesses first.
    In the interest of time, I would now like to recognize our 
Ranking Member, Mr. Chabot, for his opening statement.
    Mr. CHABOT. Thank you very much, Madam Chairwoman. And good 
morning. And we thank the Chairwoman for holding this 
bipartisan markup. It is truly refreshing with everything else 
that is going on in Congress and the administration to come to 
this Committee and actually work together in producing 
legislation that will have a positive effect on America's small 
businesses and the economy overall. And I just happened to have 
come from the Judiciary Committee, and we were discussing, of 
course, the Attorney General coming there to testify tomorrow 
on a less bipartisan topic, and I would just say it is a less 
collegial environment in there this morning. So it really is a 
breath of fresh air to come to this Committee.
    The American economy continues to be on a roll. Just last 
Friday, the Commerce Department announced that the GDP growth 
for the previous quarter was 3.2 percent, which exceeded 
expectations. The stock market has hit record high after record 
high, helping more Americans build wealth and secure their 
futures. Last Congress we passed the most comprehensive tax 
overhaul in a generation and unburdened the American economy 
with the repeal of unnecessary and onerous regulations. Those 
actions, among others, have created an economy that has seen 
unemployment levels at or near record lows, small business 
optimism among the highest that we have ever seen, and wages 
growing faster than they have in a decade. And I would note 
that unemployment among African Americans, Hispanic Americans, 
Asian Americans is literally at record all-time lows.
    But we are not here to be complacent and simply watch from 
the sidelines. We are here today to consider legislation we 
believe in a bipartisan manner that will help propel our 
economy to ever-higher heights. Our Committee has continued its 
work on important subjects like increasing access to capital 
for small firms, expanding government contracting opportunities 
for small businesses, and ensuring that small entities can be 
safe and secure in cyberspace in the new gig economy.
    That is what these bills today address, and I will talk a 
little more about each as they come up. But as has been our 
Committee's custom over the last several years, each of these 
bills are bipartisan and they all have my support. And I want 
to thank the Chairwoman for proposing them along with Members 
of this Committee on both sides.
    Again, I thank the Chairwoman for holding this markup and 
yield back.
    Chairwoman VELAZQUEZ. Thank you very much. The gentleman 
yields back.
    Before we get into the individual bills, are there any 
Members present who seek recognition for the purpose of making 
an opening statement?
    Seeing none, we will move on to our first bill, H.R. 277, 
the ``Access to Sufficient Capital for Everyone in Natural 
Disaster Areas Act of 2019,'' also called the ASCEND Act, 
introduced by myself and the Ranking Member, Mr. Chabot of 
Ohio.
    H.R. 277
    The SBA's Disaster Assistance Program was implemented for 
the purpose of providing timely financial assistance in the 
form of low-interest loans and working capital for businesses 
and homeowners devastated by a disaster. Continual improvement 
and modernization of the program has been a priority of this 
Committee for many years. And as we continue to experience 
increased disasters, both in frequency and strength, it is 
imperative Congress provides the necessary policies to get 
communities back on their feet. One of those policies 
originated in my bill, H.R. 208, the ``Recovery Improvements 
for Small Entities after Disaster Act of 2015,'' the RISE Act. 
That law raised the collateralization threshold on disaster 
loans to make it easier for victims to obtain capital to 
rebuild their home and businesses. Unfortunately, that 
provision was set to expire last year until a 1-year extension 
was enacted. My bill, H.R. 277, will permanently raise the 
minimum disaster loan amount that the SBA may require 
collateral from $14,000 to $25,000. Raising the unsecured loan 
amount will provide support for Americans when they need it 
most. This means that a disaster victim can continue to receive 
a $25,000 loan--rather than just $14,000--within 5 days of 
closing to speed up the reconstruction project. And for small 
businesses, time and again, we have seen that in the aftermath 
of a disaster, access to affordable and accessible credit can 
make the difference between remaining in business or closing 
their doors and putting Americans out of work. It is a common 
sense move and one supported by the Small Business 
Administration.
    In a report assessing the SBA Disaster Loan Program, the 
SBA recommended that an increase in the unsecured loan limit 
for disaster loans should be made permanent. The agency, again, 
stated as much in a congressional testimony at a hearing held 
last September in this Committee, and in its fiscal year 2020 
budget legislative proposals. Without this legislation, the 
unsecured loan limit for agency declarations will revert to the 
lower limits and create an unfair discrepancy for disaster 
survivors in areas of an SBA declaration and that of a major 
disaster declaration. Permanency guarantees that disaster funds 
will apply equally to disaster victims no matter the 
declaration type.
    I thank Ranking Member Chabot for cosponsoring this 
legislation which allows more borrowers to access loans without 
having to put up collateral.
    I would now like to recognize the Ranking Member for his 
statement.
    Mr. CHABOT. Thank you, Madam Chair, for working in a 
bipartisan fashion in introducing H.R. 277.
    When natural disasters strike the country, the SBA offers 
individuals and businesses low interest and fixed rate loans to 
recover and rebuild. The SBA is tasked to work in an organized 
and efficient manner to disburse loans to qualified disaster 
victims. In order to accomplish this, the SBA immediately 
extends an initial loan amount to disaster victims. For all 
declared disasters, including major declarations and SBA agency 
declarations, all disaster loans carry an immediate unsecured 
loan. The limit is $25,000. Unfortunately, the unsecured 
disaster loan limit for physical damage loans under an SBA 
agency declaration will decrease to $14,000 before the end of 
the year unless we act, and that is what we are doing.
    The SBA has studied these levels and has requested that 
Congress make the $25,000 limit permanent. To ensure continuity 
for disaster victims when they need it most, H.R. 277 codifies 
and makes permanent that amount, the $25,000 unsecured loan 
limit.
    I fully support this common sense legislation and urge my 
colleagues to vote for it. And I yield back.
    Chairwoman VELAZQUEZ. The gentleman yields back.
    Are there any other Members who wish to be recognized for a 
statement on H.R. 277?
    Okay, seeing none, I recognize myself briefly.
    There is little doubt that natural disasters not only harm 
the victims, but reflect our Nation's ability to provide 
assistance. This legislation is a much-needed response to the 
record-breaking disasters, and an effective preparation tool 
for the upcoming hurricane season. Again, I thank the Ranking 
Member for his support and I urge my colleagues to support the 
bill.
    If there is no further discussion, the Committee will move 
to consideration of H.R. 277.
    The clerk will report the title of the bill.
    The CLERK. H.R. 277, the Access to Sufficient----
    Chairwoman VELAZQUEZ. Without objection, H.R. 277 is 
considered as read and open for amendment at any point.
    Does anyone wish to offer an amendment?
    Seeing none, the question is now on H.R. 277.
    All those in favor say aye.
    All those opposed say no.
    In the opinion of the Chair, the ayes have it.
    H.R. 277 is agreed to.
    The question now occurs on reporting H.R. 277 to the House.
    All those in favor say aye.
    All those opposed say no.
    In the opinion of the Chair, the ayes have it.
    And H.R. 277 is reported to the House.
    Without objection, the Committee staff is authorized to 
correct punctuation and make other necessary technical 
corrections and conforming changes.
    Without objection, Members shall also be entitled to 2 days 
to file additional supplemental, dissenting, and minority 
views.
    H.R. 2142
    The next bill is H.R. 2142, a bill to ease regulatory 
compliance for small businesses. It was introduced by Mr. 
Delgado of New York and cosponsored by Dr. Joyce of 
Pennsylvania. This bipartisan legislation will help provide 
transparency and clarity for small businesses.
    I would like to recognize the gentleman from New York, Mr. 
Delgado, the sponsor of the bill for an opening statement on 
H.R. 2142.
    Mr. DELGADO. Thank you, Madam Chairwoman. I truly 
appreciate your leadership.
    I am very proud to see the Small Business Committee take up 
this bipartisan, common sense legislation that my friend and 
colleague, Dr. Joyce and I introduced to reduce the regulatory 
burden for small businesses.
    Under the Small Business Regulatory Enforcement Fairness 
Act, Federal agencies are required to publish small business 
compliance guides for certain regulations. However, these 
guides are housed on different agency websites, making it 
difficult for small businesses to find and utilize them and 
hard for Congress to oversee. Our bill would make these guides 
more accessible by creating a centralized one stop shop online 
for small business owners who often lack the resources to hire 
staff to focus on compliance issues. The bill would also list 
contact information for the appropriate agency staff who could 
provide regulatory assistance to small businesses.
    My main goal on this Committee is to ensure that small 
businesses across my district have the tools and resources they 
need to grow. I am excited to see this bill go through the 
Committee process and hope to see it passed.
    Thanks again, Dr. Joyce, for your leadership.
    Madam Chairwoman, I yield back.
    Chairwoman VELAZQUEZ. Thank you. The gentleman yields back, 
and I thank him for his leadership on this issue.
    Are there any other Members who wish to be recognized for a 
statement on H.R. 2142?
    The gentleman from Pennsylvania, Dr. Joyce is recognized 
for 5 minutes.
    Mr. JOYCE. Thank you, Madam Chairwoman.
    I seek recognition to ask my colleagues' support for H.R. 
2142.
    Before I speak on the bill, I want to thank the gentleman 
from New York, Mr. Delgado, for working with me on this 
important issue in a bipartisan way. I look forward to continue 
to working with you in this manner in future endeavors.
    When you are a small business owner, few things are as 
valuable as your time, and too much of it is often spent 
navigating the complex world of Federal compliance. As a small 
business owner myself, I can personally attest to the daunting 
feeling associated with new regulations. Navigating this 
bureaucracy at the Federal Government can be incredibly 
intimidating, and many small businesses fall out of compliance 
largely because they did not know where to turn for assistance.
    H.R. 2142, as Mr. Delgado pointed out, is a common sense, 
good government and transparency bill. It would require the 
small business and agricultural regulatory enforcement 
ombudsman to create a public website to provide the compliance 
guidelines required by section 212 of the Small Business 
Regulatory Enforcement Fairness ACT (SBREFA).
    Any time an agency is required to produce a final 
regulatory flexibility analysis on a role, the agency is also 
required by section 212 of SBREFA to publish one or more 
guidelines to assist small entities in complying with this 
role.
    Madam Chair, these reports are often compiled by the 
ombudsman and are available to small firms who request them. 
However, making them publicly available on a centralized 
website is this common sense way to ease the regulatory burden 
on small firms as it makes it much easier for them to know 
where to go when they need this information.
    Finally, our bill makes another common sense change by 
requiring the ombudsman to publish on the website the contact 
information for a person who can offer assistance to small 
entities with respect to the roles and the guides refer to 
them.
    Since joining the Small Business Committee, I have been 
surprised to learn how many resources are available but 
underutilized because businesses are simply unaware that they 
exist or unsure how to access them. This legislation takes an 
important step towards breaking down the barriers between the 
administration and the small businesses by simply making 
available information and making it much more accessible.
    I again thank my colleague, Mr. Delgado, for bringing this 
issue to my attention, and the Chairwoman for allowing the 
Small Business Committee to shine a much needed light to the 
complex world of Federal compliance for small business. I am 
incredibly proud to be a member of this Committee and of its 
commitment to advancing bipartisan fashion solutions which can 
make a real difference on day-to-day operations of small 
businesses across the United States.
    I simply ask each of my colleagues to support this measure 
and yield back the balance of my time.
    Chairwoman VELAZQUEZ. Thank you. The gentleman yields back.
    Are there any other members who wish to be recognized?
    Mr. Burchett?
    Mr. BURCHETT. Yes, ma'am.
    Chairwoman VELAZQUEZ. You are recognized for 5 minutes.
    Mr. BURCHETT. Thank you, Chairlady. I do not think this 
will take 5 minutes.
    I am not sure of the parliamentary situation we are in. I 
just had a question about some wording and I have seen it in 
several other pieces of legislation and maybe one of the 
attorneys could further confuse me on the facts.
    But at the end, I noticed this in the last and the other 
bills, it says ``The Small Business Regulatory Enforcement 
Fairness Act of 1996 for the year covered by such annual 
report.''
    Does this mean that this is retroactive or does it go, does 
it mean the year that was stated in the report, which would be 
the current year going forward? Does that make sense? And I 
apologize for not getting with you all sooner.
    Chairwoman VELAZQUEZ. The counsel? Yes.
    COUNSEL. I understand that it would be moving forward, 
going forward.
    Mr. BURCHETT. I cannot hear her.
    Chairwoman VELAZQUEZ. It is not retroactive. It is going 
forward.
    Mr. BURCHETT. Thank you so much. And I apologize.
    Chairwoman VELAZQUEZ. The gentleman yields back.
    I now recognize myself briefly.
    The legislation requires the SBA's Office of the National 
Ombudsman to create a centralized website with hyperlinks to 
small entity compliance guides and contacts at Federal agencies 
who could provide small businesses with compliance assistance. 
We know that small business owners do not necessarily have the 
resources and time to navigate multiple websites to fully 
understand their responsibilities with Federal laws. This bill 
will make it easier, not harder, to comply with Federal 
regulations by providing them a one stop shop for compliance 
assistance.
    I commend Representative Delgado and Dr. Joyce for working 
together in a bipartisan manner to help cut the red tape for 
small businesses, and I urge my colleagues to support the 
measure.
    The gentleman, Mr. Chabot, the Ranking Member, will be 
recognized for 5 minutes.
    Mr. CHABOT. Thank you, Madam Chair. I will not take 5 
minutes. I will be very brief.
    I just want to also commend Mr. Delgado and Mr. Joyce, Dr. 
Joyce, for working together to put forward some legislation 
which I really do believe will make it easier for small 
businesses to comply with Federal regulations. So I just want 
to commend both sides for working together in their first term. 
Well done. Thank you.
    I yield back.
    Chairwoman VELAZQUEZ. Thank you. And the gentleman yields 
back.
    If there is no further discussion, the Committee now moves 
to consideration of H.R. 2142.
    The clerk will report the title of the bill.
    The CLERK. H.R. 2142, to amend the Small Business Act----
    Chairwoman VELAZQUEZ. Without objection, H.R. 2142 is 
considered as read and open for amendment at any point.
    Does anyone wish to offer an amendment?
    Seeing none, the question is now on H.R. 2142.
    All those in favor say aye.
    All those opposed say no.
    In the opinion of the Chair, the ayes have it and H.R. 2142 
is agreed to.
    The question now occurs on reporting H.R. 2142 to the 
House.
    All those in favor say aye.
    All those opposed say no.
    In the opinion of the Chair, the ayes have it.
    And H.R. 2142 is reported to the House.
    Without objection, the Committee staff is authorized to 
correct punctuation and make other necessary technical 
corrections and conforming changes.
    Without objection, members shall also be entitled to 2 days 
to file additional supplemental, dissenting, and minority 
views.
    H.R. 1649
    The next bill is H.R. 1649, the ``Small Business 
Development Center Cyber Training Act of 2019,'' which was 
introduced by the Ranking Member, Mr. Chabot of Ohio, and 
cosponsored by Mr. Evans of Pennsylvania. This piece of 
legislation helps small business development centers (SBDCs) 
become better equipped to assist small businesses with their 
cybersecurity needs.
    I now recognize the Ranking Member for his statement on 
H.R. 1649.
    Mr. CHABOT. Thank you, Madam Chair.
    Information technology is a necessity for small businesses 
because it equips them with the tools they need to be 
competitive in the global economy. Unfortunately, small 
businesses are becoming increasingly popular targets for cyber 
criminals. The average cost of an attack on a small business is 
over $30,000, which can destroy a small business, and we had 
hearings in the last Congress and we had evidence of that from 
small business folks that this has actually happened to. And 
the figure that we had seen was like 60 percent of small 
businesses that had undergone one of these attacks actually end 
up going out of business. So it can be devastating. And then 
those people who work for that small business lose their jobs.
    That is an example of why Chairwoman Velazquez, Mr. Evans, 
and I introduced H.R. 1649, the ``Small Business Development 
Center Cyber Training Act of 2019.'' I would also like to thank 
Mr. Balderson for his early co-sponsorship of this legislation 
as well. This bipartisan legislation establishes a cyber 
counseling certification program in lead SBDCs to better assist 
small businesses with planning and implementing cybersecurity 
measures to defend against cyberattacks. The cyber assistance 
offered by trained staff at SBDCs would be provided at no or 
low cost to small businesses. Cyber planning assistance will 
encourage small businesses to take a more proactive approach to 
defending themselves from cyberattacks by leveraging the 
expertise from SBDCs and their partner agencies and 
institutions. This bill utilizes existing Federal resources to 
cover the reimbursement costs so we are not adding additional 
costs to a budget that is already stressed with over $20 
trillion that we all owe.
    We recognize cyber threats are ever-evolving and we will 
continue to work with industry to ensure that appropriate 
staffing needs are met. I urge my colleagues to support the 
measure. I again want to thank Mr. Evans especially for his 
leadership on this over the years. Mr. Balderson as well. And 
the Ranking Member as well. And I yield back.
    Chairwoman VELAZQUEZ. The gentleman yields back. Thank you.
    Are there any other members who wish to be recognized for a 
statement on H.R. 1649?
    The gentleman from Pennsylvania is now recognized for 5 
minutes, Mr. Evans.
    Mr. EVANS. Chairwoman Velazquez, and Ranking Member Chabot, 
and colleagues on the Small Business Committee, I speak now to 
offer my support for H.R. 1649, the Small Business Development 
Center Cyber Training Act. I am proud to co-lead this 
bipartisan piece of legislation with my colleague, Chairwoman 
Velazquez, and the Ranking Member Chabot.
    Today, we have the opportunity to present real pieces of 
legislation that have the potential to help small businesses. 
As you know, I consider small businesses to be the foundation 
of our communities. They are the engines that drive innovation, 
investment, and economic development. They are the pillars that 
prop up our communities.
    In my home state, the Commonwealth of Pennsylvania, we have 
nearly 1 million small businesses employing 2.5 million workers 
accounting for 46.7 of the workforce for the entire state. 
Small firms account for 99.6 percent of my state employers.
    Across the U.S., there are nearly 30 million small 
businesses supporting almost 59 million jobs. Small firms 
account for approximately 99.9 percent of U.S. businesses. 
Needless to say, small businesses are the drivers in our 
community, often filling space in neighborhoods that large 
companies fail to reach. At the same time, our society has been 
and still is going through a technological revolution. Yet, as 
technology makes things easier, it is also open to 
vulnerabilities. The same tools that are making our lives 
better, like on-demand services, digital wallets, and social 
networks, are also making our information easier to access for 
both good and bad actors.
    In the past decade, we have seen time and time again those 
bad actors engage in cyberattacks, stealing information from 
businesses and government agencies. In 2014, it was discovered 
that the U.S. Government's own Office of Personnel Management 
was hacked, resulting in the theft of over 20 million records. 
In 2013, criminals broke into the Target database stealing the 
financial information of millions of customers. As one of the 
largest U.S. retail chains, Target eventually reported that 
some 40 million credit and debit numbers were stolen.
    Breaches have also been reported at Home Depot, JPMorgan 
Chase, and SONY. These breaches can have a devastating impact 
on businesses. Sales may decline and shoppers turn elsewhere. 
According to the Congressional Research Service, Target 
reported that its U.S. sales for that quarter decreased 2.5 
percent and it was immediately following the announcement of 
the data breach. Now, as major entities like Target, Home 
Depot, and the U.S. Government struggle with the challenges of 
cybersecurity, what chances do our small businesses have? The 
Small Business Development Center Cyber Training was written to 
migrate small businesses' cybersecurity risk by providing 
training and resources for small businesses to better equip 
themselves against cyberattacks. This bill instructs the Small 
Business Administration to provide cyber counseling for local 
small businesses by first certifying SBA employees at Small 
Business Development Centers who will then provide assistance 
to small businesses for planning cybersecurity practices and 
strategies to respond to cyberattacks.
    I appreciate having the opportunity to co-lead this 
important piece of legislation. It is critical that we help our 
small businesses, the backbone of our Nation's economy, and 
ensure that they are given the training they need to secure 
their data.
    Thank you, Madam Chair. And I yield back the balance of my 
time.
    Chairwoman VELAZQUEZ. The gentleman yields back.
    I now recognize myself briefly.
    America's entrepreneurs have always been vital to 
technological growth and advancement, but they have also been 
vulnerable to cyberattacks and data breaches. Because of the 
complexity and costs associated with identifying, monitoring, 
and sharing information with appropriate agencies, only 31 
percent of small firms have cybersecurity plans in place. 
Perhaps this is related to a mere 14 percent of small 
businesses having a plan in place for keeping their companies 
cyber secure. Cybersecurity is top priority for the small 
business community and this Committee has taken that duty 
seriously by presenting three bills focusing on improving 
cybersecurity training, protection, and awareness for small 
businesses.
    The first of those bills today, H.R. 1649, directs the SBA 
to implement a cybersecurity certification program to ensure 
counselors in the SBA's network of small business development 
centers are equipped to educate firms and help develop cyber 
strategies. Cyber-crime is one of the greatest risks to every 
business in the world. This legislation ensures that our 
Nation's most vulnerable businesses are prepared to combat this 
eminent threat.
    I would like to thank Ranking Member Chabot and Vice 
Chairman Evans for working together on this important 
legislation, and I urge my colleagues to support the bill.
    If there is no further discussion, the Committee will move 
on to consideration of H.R. 1649.
    The clerk will report the title of the bill.
    The CLERK. H.R. 1649, the Small Business Development 
Center----
    Chairwoman VELAZQUEZ. Without objection, H.R. 1649 is 
considered as read and open for amendment at any point.
    Does anyone wish to offer an amendment?
    Seeing none, the question is now on H.R. 1649.
    All those in favor say aye.
    All those opposed say no.
    In the opinion of the Chair, the ayes have it and H.R. 1649 
is agreed to.
    The question now occurs on reporting H.R. 1649 to the 
House.
    All those in favor say aye.
    All those opposed say no.
    In the opinion of the Chair, the ayes have it.
    And H.R. 1649 is reported to the House.
    Without objection, the Committee staff is authorized to 
correct punctuation and make other necessary technical 
corrections and conforming changes.
    Without objection, members shall also be entitled to 2 days 
to file additional supplemental, dissenting, and minority 
views.
    H.R. 1648
    The next bill is H.R. 1648, the ``Small Business Advanced 
Cybersecurity Enhancements Act of 2019,'' which was introduced 
by the Ranking Member, Mr. Chabot of Ohio, and cosponsored by 
myself. This bill aims to increase the defensive measures 
available for small businesses affected by or concerned by 
cyberattacks.
    I will now recognize the Ranking Member for his statement 
on H.R. 1648.
    Mr. CHABOT. I thank the gentlelady.
    H.R. 1648, the ``Small Business Advanced Cybersecurity 
Enhancements Act of 2019'' builds on the reforms of the bill 
just reported, H.R. 1648. This bipartisan legislation 
introduced by myself and Chairwoman Velazquez and cosponsored 
by Mr. Balderson, aims to increase the defensive measures 
available for small businesses undergoing or concerned about a 
cyberattack. It would incentivize additional information 
sharing between the private sector and the Federal Government. 
We have heard from small business owners, cybersecurity 
experts, and government officials, and there is no question 
that improving cybersecurity for America's small businesses 
should be an urgent priority for most small firms.
    Over the past few years, the Federal Government has stepped 
up its efforts to both prevent and mitigate cyberattacks by 
coordinating and distributing cybersecurity resources directly 
to small businesses. This is a good thing, but we must increase 
information sharing between the Federal Government and small 
businesses to ensure that they have every resource possible to 
combat cyber threats. That means we must give small businesses 
the confidence they need to engage with the Federal agencies 
tasked with protecting them.
    Our bipartisan legislation seeks to safeguard small 
businesses from cyberattacks in a few simple ways. First, the 
bill establishes SBDCs as the primary liaison for small 
businesses that share cybersecurity information with the 
Federal Government. This bill also ensures that small 
businesses that engage with SBDCs receive the same protections 
and exemptions provided by the Cybersecurity Information 
Sharing ACT (CISA). Further, this bill would ensure that any 
policies or rulemaking adopted by any Federal agency as a 
result of Federal information sharing does not unfairly burden 
small businesses. It would also expand liability protections 
for small businesses that engage with the Federal Government in 
good faith. Ultimately, this legislation removes the barriers 
many small business owners face when confronted with a cyber 
threat, encouraging them to work with the Federal Government 
and not fear it.
    I urge my colleagues to support the bill and yield back.
    Chairwoman VELAZQUEZ. Thank you. The gentleman yields back. 
And I thank him for his continued leadership on this very 
important issue.
    Are there any other members who wish to be recognized for a 
statement on H.R. 1648?
    Seeing none, I will recognize myself for a brief comment.
    H.R. 1648 recognizes that the Federal Government and U.S. 
businesses must work together to effectively fight cybercrime. 
Proactive collaboration and information sharing are essential 
to combatting the rapidly evolving cyber threats that plague 
our country. However, many small businesses lack the 
information needed to develop adequate cybersecurity strategies 
and are reluctant to report cyber threat indicators to the 
Federal Government. The Small Business Advanced Cybersecurity 
Enhancement Act of 2019 will encourage good faith collaboration 
between small businesses and the Federal Government by 
providing additional resources and protections for small 
businesses. Specifically, the bill establishes small business 
cybersecurity assistance units to connect small businesses to 
the Federal Government's cybersecurity resources and receive 
cyber threat indicators from small businesses. This bill 
protects small businesses by ensuring that the SBA Office of 
Advocacy has a seat at the table when policies are being 
implemented because of the information sharing.
    H.R. 1648 also provides liability protections for small 
businesses that engage in information sharing. Tackling 
sophisticated cyber threats requires a joint effort and 
legislation will implement a coordinated and proactive approach 
to protecting our country from cybercrime.
    I am a proud cosponsor of the Ranking Member's bill, and I 
urge my colleagues on both sides of the aisle to support it.
    If there is no further discussion, the Committee will move 
on to consideration of H.R. 1648.
    The clerk will report the title of the bill.
    The CLERK. H.R. 1648, the ``Small Business Advanced 
Cybersecurity Enhancements Act.''
    Chairwoman VELAZQUEZ. Without objection, H.R. 1648 is 
considered as read and open for amendment at any point.
    Does anyone wish to offer an amendment?
    Seeing none, the question is now on H.R. 1648.
    All those in favor say aye.
    All those opposed say no.
    In the opinion of the Chair, the ayes have it and H.R. 1648 
is agreed to.
    The question now occurs on reporting H.R. 1648 to the 
House.
    All those in favor say aye.
    All those opposed say no.
    In the opinion of the Chair, the ayes have it.
    H.R. 1648 is reported to the House.
    Without objection, the Committee staff is authorized to 
correct punctuation and make other necessary technical 
corrections and conforming changes.
    Without objection, members shall also be entitled to 2 days 
to file additional supplemental, dissenting, and minority 
views.
    H.R. 2331
    The next and third cyber bill is H.R. 2331, the ``SBA Cyber 
Awareness Act of 2019,'' which was introduced by Mr. Crow from 
Colorado and cosponsored by Mr. Balderson from Ohio.
    This legislation takes important steps to strengthen the 
Small Business Administration's cybersecurity infrastructure to 
handle and report cyber threats that affect small businesses.
    I would now like to recognize the gentleman from Colorado, 
the sponsor of the bill, for an opening statement on H.R. 2331.
    Mr. CROW. Madam Chairwoman, thank you for the opportunity 
to speak in support of our bill, the SBA Cyber Awareness Act.
    I believe there is something uniquely American about 
starting a small business. As anyone will tell you, starting a 
small business is never easy. It requires hard work, grit, and 
hustle, the same entrepreneurial spirit that drove the pioneers 
west to Colorado and that today makes the American economy the 
strongest in the world.
    Too often, small business owners are overworked, wearing 
multiple hats and balancing a variety of responsibilities, from 
payroll to maintenance, customer service to marketing, and as 
any small business owner or employee will attest, no task is 
too small. Running a small business is truly an all hands on 
deck effort.
    Like any new and challenging endeavor, our Nation's small 
businesses are at their most vulnerable when they are presented 
with something unexpected. Whether it is unanticipated downward 
market trends, natural disasters, or cyberattacks. To the 
latter point, according to one recent study, 47 percent of 
small businesses have suffered a cyberattack in the past 12 
months.
    There is more that we can do to protect our Nation's 
entrepreneurs from cybercrime. And it is not just small 
businesses. In 2015, the U.S. Office of Personnel Management 
was hacked, compromising the data security of nearly 22 million 
Americans. We need to ensure that every arm of the Federal 
Government is safeguarded, including the SBA.
    Our bill, which I had the pleasure of introducing 2 weeks 
ago along with my friend from Ohio, Mr. Balderson, requires the 
SBA to undertake a series of efforts to ensure that it and our 
Nation's small businesses are protected from cyberattacks. 
Specifically, it requires the SBA to audit its IT and 
cybersecurity infrastructure, the administration's strategy to 
improve cybersecurity protections, any equipment used by the 
SBA and manufactured by a company headquartered in China, and 
any incident of cyber risk at the SBA and agencies' actions to 
confront it.
    Finally, recognizing that a cyberattack to the agency could 
put this sensitive information and intellectual property of 
small businesses at risk, the bill would require SBA to notify 
Congress of future breaches within information on those 
affected and how the breach occurred.
    I know all members of this Committee understand the 
incredible impacts small businesses have on our communities, 
and I imagine all of us here have experienced some form of 
cyberattack, whether it be in the form of a phishing email or 
identity theft.
    I urge my colleagues to support our bill and I thank the 
Chairwoman for the opportunity to speak on its behalf.
    I yield back.
    Chairwoman VELAZQUEZ. Thank you. The gentleman yields back.
    And now I recognize the cosponsor of the bill, Mr. 
Balderson, from Ohio, for 5 minutes.
    Mr. BALDERSON. Thank you for the time, Madam Chair. And 
thank you for being an original cosponsor of this important 
piece of legislation. I would also like to thank Ranking Member 
Chabot for his support of this bill.
    I want to quickly say that I am a cosponsor on the Ranking 
Member's two cybersecurity bills, H.R. 1648 and 1649. I am 
confident that these two bills will help small business owners 
prepare for and overcome modern and digital obstacles.
    Along that same line, I am a proud original cosponsor of 
Subcommittee Chairman Crow's SBA Cyber Awareness Act of 2019. 
Because this bill addresses potential weakness within the Small 
Business Administration's cybersecurity infrastructure, by 
passing this bill we will proactively guard against harmful and 
widespread cyberattacks by bringing the Small Business 
Administration's cybersecurity defenses into the 21st Century. 
This bill will protect the sensitive business and personal 
information of millions of small business owners across the 
country.
    In a rapid developing digital age, strong cybersecurity 
protections and reinforcements are of the utmost importance. 
This is especially true for fragile small businesses that rely 
on having a secure online presence for ecommerce transactions, 
data collection and storage, and hosting intellectual property, 
yet do not have the same infrastructure as larger corporations 
equipped to deal with cyberattacks. A threat to cybersecurity 
is a threat to small businesses' validity. That is why this 
bill is so important.
    This is bipartisan, common sense legislation, and I want to 
especially thank my friend, Chairman Crow, also for his 
leadership on this effort. It is nice to see Congress 
proactively attempting to solve problems before they occur, 
rather than waiting until something goes wrong and reacting.
    Again, I stress that our digital world changes constantly 
and happens quickly. We, as Congress, must lift up the small 
businesses of America and ensure they have the support they 
need to address this ever-changing online environment.
    Once again, I thank the Chair and Ranking Member for their 
support. I thank my colleague from Colorado for his proactive 
leadership, and I urge the Committee's support of H.R. 2331.
    With that, I yield back my remaining time, Madam Chair.
    Chairwoman VELAZQUEZ. Thank you. The gentleman yields back. 
And now I recognize the Ranking Member, Mr. Chabot, for his 
statement.
    Mr. CHABOT. Thank you, Madam Chair.
    In the interest of time, rather than read my entire 
statement, I will just commend Mr. Crow and Mr. Balderson for 
working together in a bipartisan manner on this. It is great to 
see Ohio and Colorado working together. So thank you very much, 
and I yield back.
    Chairwoman VELAZQUEZ. The gentleman yields back.
    Me, too, I want to thank both Representative Crow and 
Representative Balderson for working together to ensure that 
millions of small businesses can protect their data, and I urge 
my colleagues to support the legislation.
    If there is no further discussion, the Committee will move 
on to consideration of H.R. 2331.
    The clerk will report the title of the bill.
    The CLERK. H.R. 2331, the SBA Cyber Awareness----
    Chairwoman VELAZQUEZ. Without objection, H.R. 2331 is 
considered as read and open for amendment at any point.
    Does anyone wish to offer an amendment?
    Seeing none, the question is now on H.R. 2331.
    All those in favor say aye.
    All those opposed say no.
    In the opinion of the Chair, the ayes have it and H.R. 2331 
is agreed to.
    The question now occurs on reporting H.R. 2331 to the 
House.
    All those in favor say aye.
    All those opposed say no.
    In the opinion of the Chair, the ayes have it.
    And H.R. 2331 is reported to the House.
    Without objection, the Committee staff is authorized to 
correct punctuation, make other necessary technical corrections 
and conforming changes.
    Without objection, Members shall also be entitled to 2 days 
to file additional supplemental, dissenting, and minority 
views.
    H.R. 2345
    Our final bill today is H.R. 2345, the ``Clarifying the 
Small Business Runway Act of 2019,'' which was introduced by 
Mr. Stauber from Minnesota and cosponsored by Mr. Golden from 
Maine.
    This bipartisan bill clarifies the intent of Congress in 
the implementation of the Small Business Runway Extension Act 
which we successfully passed into law last year.
    I will now like to recognize the gentleman from Minnesota, 
the sponsor of the bill, for an opening statement on H.R. 2345.
    Mr. STAUBER. Thank you, Madam Chair, and Ranking Member 
Chabot.
    H.R. 2345 clarifies the Small Business Runway Extension 
Act. It is a bill that attempts to do exactly what it says, to 
make clear the intent of the Small Business Runway Extension 
Act of 2018. The Runway Act of 2018 was simple, 
straightforward, and unambiguous. It simply extended the Small 
Business Administration's receipt-based size calculation from a 
3-year average to a 5-year average. Recognizing the 
significance of this bill for small business, the Runway Bill 
easily passed through both House and Senate becoming law on 
December 17, 2018. Within 4 days of the law's passage, the SBA 
installed its implementation issuing an information notice that 
effectively contradicted the Runway Act of 2018 by maintaining 
the 3-year calculation until the agency could go through the 
rulemaking process.
    In a Subcommittee on Contracting and Infrastructure hearing 
held on March 26, Chairman Jared Golden and I learned that this 
conflict in law enacted versus regulation adopted imposed 
significant real-world challenges for small businesses who may 
be teetering on the edge between ``small'' and ``other than 
small business'' status. The need for clarity was a constant 
and reoccurring theme and this bill attempts to do exactly 
that.
    First, H.R. 2345 makes clear that the Runway Act of 2018 
does, in fact, apply to the Small Business Administration, and 
therefore, should have become effective on the day it was 
signed into law. Thus, businesses relying on the 5-year average 
to remain in their ``small business status'' were correct in 
their assessment and may continue to do so.
    Secondly, the bill requires the Small Business 
Administration to develop a transition plan for small 
businesses and Federal agencies as they shift to the 5-year 
rule. The transition plan also includes a transition or a 
buffer period in which firms that benefit from the old 3-year 
calculation may continue to rely on that formula for a set 
amount of time as they prepare for the eventual shift to the 5-
year average calculation.
    In short, H.R. 2345 restates the will of Congress as 
intended in the Runway Act of 2018 and adopts solutions that 
will create a smooth transition for all parties involved.
    I would like to thank Member Golden for helping me and I 
urge my colleagues for their support of H.R. 2345 which 
clarifies the Small Business Runway Extension Act. And I yield 
back, Madam Chair.
    Chairwoman VELAZQUEZ. The gentleman yields back.
    And now I recognize the gentleman from Maine, Mr. Golden, 
for an opening statement.
    Mr. GOLDEN. Thank you, Madam Chairwoman.
    I would like to thank Representative Stauber for sponsoring 
this bill and for the work that we were able to do together 
having a hearing in the Subcommittee about it. Earlier this 
year we did have a hearing in the Contracting and 
Infrastructure Subcommittee and saw that the SBA's failure to 
implement the Runway Extension Act created confusion among 
small businesses who did not know if they currently qualified 
for contracting opportunities.
    One thing I hear from small businesses when I speak with 
them in Maine is that they want clarity and certainty. By 
passing this bill, we are going to create certainty where now 
there is confusion. Certainty that a small business should 
consider the sales over 5 years instead of 3, and certainty 
that the act applies to the SBA as well as other agencies. I am 
hopeful that this bill will, as the original Runway Extension 
Act was designed, help growing small businesses get themselves 
in a place where they can compete with titans of industry and 
multinational corporations.
    While I am frustrated that we have to lead the SBA to water 
and make it drink, I hope that passing this bill will clarify 
what was already abundantly clear from the previous bill, this 
is intended to apply to the SBA and be implemented rapidly.
    I yield back the remainder of my time. Thank you, Madam 
Chairwoman.
    Chairwoman VELAZQUEZ. Thank you. The gentleman yields back.
    And now I recognize the Ranking Member, Mr. Chabot.
    Mr. CHABOT. Thank you, Madam Chair. And again, in the 
interest in time and getting people to lunch here, I think 
because we are getting close to wrapping up, rather than read 
my opening statement I would just like to commend Mr. Stauber 
and Mr. Golden for working together in a bipartisan manner. And 
also, if Ohio and Colorado can get together, I guess Minnesota 
and Maine can as well.
    So we thank you, and I yield back.
    Chairwoman VELAZQUEZ. Thank you. The gentleman yields back. 
I thank him and I thank both Representatives Stauber and Golden 
for working together, and I urge my colleagues to support the 
bill.
    If there is no further discussion, the Committee will move 
on to consideration of H.R. 2345.
    The clerk will report the title of the bill.
    The CLERK. H.R. 2345, the Clarifying the Small Business 
Runway----
    Chairwoman VELAZQUEZ. Without objection, H.R. 2345 is 
considered as read and open for amendment at any point.
    Does anyone wish to offer an amendment?
    Mr. HAGEDORN. Madam Chair, I have an amendment.
    Chairwoman VELAZQUEZ. For what purpose does the gentleman 
from Minnesota seek recognition?
    Mr. HAGEDORN. I offer an amendment for consideration.
    Chairwoman VELAZQUEZ. The clerk will report the amendment.
    The CLERK. Amendment to H.R. 2345 offered by Mr. Hagedorn 
of Minnesota.
    Chairwoman VELAZQUEZ. Without objection, the amendment is 
considered as read.
    And the gentleman is recognized for 5 minutes.
    Mr. HAGEDORN. Thank you, Madam Chair. I will not take but 
just a second.
    I want to associate myself with the remarks of both the 
Ranking Member Stauber, my fellow Minnesotan, and Subcommittee 
Chair, Mr. Golden, about this bill. I appreciate this bill. I 
think it is certainly unfortunate that we had to get to this 
point that the Executive Branch has been dragging its feet but 
the purposes of the original law and what is being done today 
are excellent.
    All I have is the sense of the Congress to restate exactly 
in very plain terms what we intend to accomplish, including 
especially that this bill and the Runway Extension Act includes 
a government-wide acquisition to contracts. And as somebody who 
used to work in the Treasury Department and I have seen my 
share of how Executive Branch employees can sometimes want to 
do their own thing or ignore the will of the Congress, I just 
simply wanted to put this out there so it is restated in common 
sense terms and that there is no misunderstanding once this 
bill passed of what the intention of this Committee and the 
House and the Senate, hopefully, as we pass the bill is 
intending.
    So with that, I yield back.
    Chairwoman VELAZQUEZ. The gentleman yields back.
    I now recognize Mr. Chabot for any remarks he may have.
    Mr. CHABOT. Thank you, Madam Chair. And I will also be 
brief on this.
    This amendment makes clear to the public the intended 
application and effective date of the Small Business Runway 
Extension Act of 2018 as envisioned by Congress.
    I would like to thank Mr. Hagedorn for his helpful 
amendment and urge my colleagues to support it. And yield back.
    Chairwoman VELAZQUEZ. The gentleman yields back.
    Are there any other Members who wish to be recognized for a 
statement on the amendment?
    Well, seeing none, I want to thank the gentleman from 
Minnesota for offering the amendment, and I appreciate his 
concern that the Runway Extension Act of 2018 be applied as 
soon as possible. I, too, share your frustration that 
implementation of the law has been delayed. And it was the 
intent of Congress for the law to go into effect upon 
enactment. This amendment makes clear, and we are sending a 
strong message to the executive and to the administration that 
that was the intent of Congress.
    So the question now is on the amendment.
    All those in favor say aye.
    All those opposed say no.
    In the opinion of the Chair, the ayes have it and the 
amendment is agreed to.
    Are there any other members who wish to be recognized for 
the purposes of offering an amendment?
    Seeing none, the question is now on H.R. 2345 as amended.
    All those in favor say aye.
    All those opposed say no.
    In the opinion of the Chair, the ayes have it and H.R. 2345 
as amended is agreed to.
    The question now occurs on reporting H.R. 2345 to the House 
as amended.
    All those in favor say aye.
    All those opposed say no.
    In the opinion of the Chair, the ayes have it.
    And H.R. 2345 as amended is reported to the House.
    Without objection, the Committee staff is authorized to 
correct punctuation and make other necessary technical 
corrections and conforming changes.
    Without objection, Members shall also be entitled to 2 days 
to file additional supplemental, dissenting, and minority 
views.
    So let me take this opportunity to thank all the Members 
for being here today and for offering and supporting the bills. 
I am proud we had a bipartisan effort today. Taken together, I 
believe these bills will truly help our Nation's small firms, 
and I look forward to seeing them passed by the Committee and 
through the entire House.
    So if there is no further business to come before the 
Committee----
    Mr. CHABOT. Madam Chair?
    Chairwoman VELAZQUEZ. Yes, sir?
    Mr. CHABOT. Just one final thing if I could.
    Chairwoman VELAZQUEZ. Sure.
    Mr. CHABOT. I also want to thank the gentlelady for working 
in a bipartisan fashion as this Committee has done over the 
years in passing legislation that both sides agree on, and look 
forward to doing this in the future and would recommend that 
all Members do the same thing because you can actually get 
things passed in this Committee which is not necessarily true 
in some of the other Committees around this place. So thank 
you, and I yield back.
    Chairwoman VELAZQUEZ. Well, I am happy that we took you 
away from the Judiciary hearings and have been able to lower 
your blood pressure.
    So if there is no further business to come before the 
Committee, we are adjourned. Thank you.
    [Whereupon, at 12:33 p.m., the Committee was adjourned.]
    [Whereupon, at 12:33 p.m., the committee was adjourned.]
                            
                            
                            A P P E N D I X

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
